<html>
<title> - NOMINATION OF LILLIAN A. SPARKS TO BE COMMISSIONER OF THE ADMINISTRATION FOR NATIVE AMERICANS, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES</title>
<body><pre>[Senate Hearing 111-561]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-561
 
       NOMINATION OF LILLIAN A. SPARKS TO BE COMMISSIONER OF THE 
  ADMINISTRATION FOR NATIVE AMERICANS, U.S. DEPARTMENT OF HEALTH AND 
                             HUMAN SERVICES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 28, 2010

                               __________

         Printed for the use of the Committee on Indian Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
57-668                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
DANIEL K. AKAKA, Hawaii              TOM COBURN, M.D., Oklahoma
TIM JOHNSON, South Dakota            MIKE CRAPO, Idaho
MARIA CANTWELL, Washington           MIKE JOHANNS, Nebraska
JON TESTER, Montana
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 28, 2010.................................     1
Statement of Senator Dorgan......................................     1
Statement of Senator Franken.....................................    21
Statement of Senator Johanns.....................................    23
Statement of Senator Johnson.....................................     3
Statement of Senator Tester......................................    24
Statement of Senator Udall.......................................    23

                               Witnesses

Bordeaux, Hon. Rodney M., President, Rosebud Sioux Tribe.........     2
Sparks, Lillian A., Nominee to be Commissioner of the 
  Administration for Native Americans, U.S. Department of Health 
  and Human Services.............................................     4
    Prepared statement...........................................     6
    Biographical information.....................................     7

                                Appendix

Response to written questions submitted to Lillian A. Sparks by:
    Hon. Daniel K. Akaka.........................................    32
    Hon. Tom Coburn, M.D.........................................    31
Rosebud Sioux Tribe, letters of support......................... 27, 28
Whitefoot, Patricia L., President, National Indian Education 
  Association, letter of support.................................    30


       NOMINATION OF LILLIAN A. SPARKS TO BE COMMISSIONER OF THE 
  ADMINISTRATION FOR NATIVE AMERICANS, U.S. DEPARTMENT OF HEALTH AND 
                             HUMAN SERVICES

                              ----------                              


                       THURSDAY, JANUARY 28, 2010


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:15 p.m. in room 
628, Dirksen Senate Office Building, Hon. Byron L. Dorgan, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. We are going to call the hearing to order. 
This is a hearing of the Indian Affairs Committee.
    Today, the Committee will conduct a nomination hearing on 
Ms. Lillian Sparks to be the Commissioner of the Administration 
for Native Americans at the Department of Health and Human 
Services. Following this hearing, we will conduct an oversight 
hearing on the longstanding high unemployment rates in Indian 
Country.
    First, Ms. Sparks. She was nominated on October 23, 2009 by 
President Obama to be the Commissioner of the Administration 
for Native Americans, and we are pleased to have her with us 
today. The Administration for Native Americans, ANA, was 
created to promote self-sufficiency and cultural preservation 
among Indian tribes in the United States. The ANA Commissioner 
serves as a key advocate for the Native Americans within the 
Department of Health and Human Services.
    ANA provides competitive funding for community-based 
projects that are designed to improve social, cultural and 
economic development. The Commissioner manages the ANA-funded 
grant programs in Indian Country and also coordinates with the 
Director of the Indian Health Service to advise the Secretary 
on matters relating to Indian affairs.
    Ms. Sparks is an enrolled member of the Rosebud Sioux Tribe 
in South Dakota, has served as the Executive Director of the 
National Indian Education Association for the past six years, 
and as Executive Director, she has worked to increase 
educational opportunities and resources for American Indians, 
Alaska Natives, and Native Hawaiian students. She has also 
fought to protect American Indian culture and languages on 
behalf of the NIEA and Indian Country.
    Prior to joining NIEA, Ms. Sparks worked at a staff 
attorney for the Congress of American Indians, NCAI, where she 
focused on the protection of sacred sites, the promotion of 
cultural protection, and indigenous rights. She has also 
advocated on behalf of NCAI in the issue areas of Indian health 
care, Native youth, and religious protection.
    Ms. Sparks' work on these issues and 10 years of 
professional experience make her a qualified candidate for the 
Commissioner of the Administration for Native Americans. Her 
experience closely aligns with the requirements of the position 
and I look forward to working with my colleagues on this 
nomination.
    I want to thank Ms. Sparks for being here to answer 
questions, and I want to thank Mr. President, or rather 
President Bordeaux of the Rosebud Sioux Tribe for traveling 
here to introduce Ms. Sparks to the Committee.
    Are there any other Members who wish to make an opening 
statement?
    Hearing none, let me ask Ms. Sparks and Mr. Bordeaux to 
take their seats at the witness table.
    Mr. Bordeaux, we welcome you from South Dakota. You may 
proceed. Your entire statement will be made a part of the 
permanent record.

STATEMENT OF HON. RODNEY M. BORDEAUX, PRESIDENT, ROSEBUD SIOUX 
                             TRIBE

    Mr. Bordeaux. Good afternoon, Chairman Dorgan, Senator 
Johnson, Members of the Senate Committee on Indian Affairs. I 
am extremely honored today to speak on behalf of Lillian 
Sparks, a member of the Rosebud Sioux Tribe, and her nomination 
as Commissioner for the Administration for Native Americans at 
the U.S. Department of Health and Human Services.
    Lillian's Lakota name is Wanakchowee, Flower Woman. She is 
a member of the Rosebud Sioux Tribe and a descendant of the 
Oglala Sioux Tribe, and has a longstanding demonstrable record 
of service to Indian Country and children and families. She is 
a well respected and highly intelligent woman who is well 
versed in both her Lakota teaching and national policies and 
affairs.
    As mentioned earlier, she served as a law clerk for the 
National Indian Gaming Association, Staff Attorney for the 
National Congress of American Indians, and most recently as the 
Executive Director of the National Indian Education 
Association.
    Lillian has a wide array of experiences ranging from work 
on international indigenous rights, sacred sites and religious 
protection, and issues related to youth and health care. 
Throughout her career, Lillian has served as a greater 
intermediary of information to Indian Country policies and 
legislation happening on the national level.
    Lillian has firsthand experience working on national 
policies designed to increase high school graduation rates, 
support school-based health and Head Start Programs, and 
revitalize Native American languages and culture.
    Specifically, Lillian has been instrumental in the drafting 
of provisions for the Elementary and Secondary Education Act, 
the Esther Martinez Native American Languages Act, a bill to 
include the Bureau of Indian Education schools in the Race To 
The Top funding that was provided in the American Reinvestment 
and Recovery Act.
    Through her tireless efforts on the aforementioned bills, 
Lillian was able to include provisions to support culturally 
based education, align standards and assessments, and teacher 
support. She has increased the resources and program capacity 
for native language programs in tribal communities and assisted 
in increasing the number of children served by various Federal 
programs, including programs at the BIE, BIA, and Indian Health 
Service, Office of Head Start, and the Administration for 
Native Americans. Additionally, her efforts have led to 
increased and restored funding in a number of Federal agencies 
and departments.
    Not only does Lillian have the substantive knowledge and 
experience to serve as the Commissioner of ANA, she also has 
good rapport with both tribal leaders and policy makers. Her 
relationship with tribal governments and national organizations 
has led her role as a co-facilitator in the Native Children's 
Agenda, a national policy discussion on comprehensively meeting 
the health, education and welfare needs of native youth. 
Through NCA, Lillian continues to examine existing policies and 
programs that may be implemented in native communities to the 
benefit of native families and tribal governments.
    Her extraordinary ability to analyze concerns, identify 
program obstacles, and outline necessary courses of action has 
proven to be invaluable for both the formulation of tribal and 
national policies.
    Lillian's determination and commitment to assist her 
Nation's most under-served populations is demonstrated by her 
willingness to serve and tirelessly advocate on behalf of those 
voices who have not always been heard.
    For this reason, I respectfully and happily give my highest 
recommendation for Lillian Sparks as the Commissioner for 
Native Americans at the U.S. Department of Health and Human 
Services. And the Rosebud Sioux Tribe, we have submitted 
written testimony and our Tribal Council met yesterday and they 
wholeheartedly support Lillian and her nomination.
    Thank you.
    The Chairman. Mr. Bordeaux, thank you for your leadership 
of the Rosebud Sioux Tribe, and thanks for traveling here today 
to give us your thoughts on this nomination. We appreciate it 
very much, and we will excuse you and then call on Ms. Sparks.
    So Mr. Bordeaux, thank you very much.
    Mr. Bordeaux. Thank you.
    The Chairman. Ms. Sparks, let me, as a courtesy, call on 
Senator Johnson from South Dakota before I call on you.
    Senator Johnson?

                STATEMENT OF HON. TIM JOHNSON, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Mr. Chairman.
    It is a great pleasure to be here today, and I am glad you 
are holding this nomination hearing today.
    I welcome my good friend, President Bordeaux. As President 
of the Rosebud Sioux Tribe in my home State of South Dakota, we 
have had a strong working relationship and it is good to see 
him here today introducing this nominee.
    I also welcome nominee Lillian Sparks to the Committee. An 
enrolled member of the Rosebud Sioux Tribe and also of Oglala 
Sioux descent, she has a unique perspective on the needs of 
Indian Country, especially to those needs in South Dakota.
    I am grateful to the President for putting forth nominees 
that are in tune with the needs of our Indian communities.
    Thank you again for this hearing. I look forward to 
continuing work with President Bordeaux and Ms. Sparks in the 
future.
    Thank you.
    The Chairman. Senator Johnson, thank you very much.
    Ms. Sparks, welcome to the Committee. My understanding is 
you are accompanied by your mother. Is that correct? Would you 
wish to introduce her to us?
    Ms. Sparks. It would be my honor to introduce her. My 
mother, Georgeline Brushbreaker Sparks, Oyate Waha Canka YaPi 
Win, Shield For Her People Woman, is accompanying me today.
    The Chairman. We welcome her.
    Ms. Sparks. And I would like to acknowledge my father as 
well, Leroy Sparks, who I know is at home watching on the 
webcast.
    The Chairman. Well, I am sure they are very proud parents, 
so we welcome your mother.
    We will call on you. Your entire record will be made a part 
of the permanent record, your entire statement, rather, and you 
may summarize. We will call on you to provide your statement.

         STATEMENT OF LILLIAN A. SPARKS, NOMINEE TO BE 
         COMMISSIONER OF THE ADMINISTRATION FOR NATIVE 
    AMERICANS, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Sparks. Thank you, Mr. Chairman.
    Good afternoon to Members of the Senate Committee on Indian 
Affairs. My name is Lillian Sparks, and as has been mentioned 
several times, I am an enrolled member of the Rosebud Sioux 
Tribe and a descendant of the Oglala Sioux Tribe.
    I humbly come before you as the President's nominee to be 
the Commissioner for the Administration for Native Americans at 
the Department of Health and Human Services.
    I was honored when the President nominated me to the 
position of the Commissioner for ANA this past October, and I 
believe my experiences have prepared me well to assume the 
responsibilities of this important position. Currently, I serve 
as the Executive Director of the National Indian Education 
Association, where I lead the efforts of the membership and the 
Board of Directors on education issues impacting American 
Indians, Alaska Natives and Native Hawaiians.
    I have also worked as a staff attorney for the National 
Congress of American Indians, where I focused on issues 
relating to tribal government and youth and families, including 
health care, early childhood education, international 
indigenous human rights, and religious protection.
    I wish to serve as the Commissioner for ANA because I 
believe in the goals of self-sufficiency and cultural 
preservation established at ANA, and because I share this 
Administration's support for increasing and strengthening 
services to families and to youth.
    It would be my honor to assist in implementing the 
President's agenda for tribal communities, including economic 
and infrastructure development, early childhood education, 
language preservation, and the principles of self-
determination, tribal consultation and tribal inclusion.
    I am a strong believer in service leadership and strive to 
practice service to others over self-interest. Raised in my 
traditional Lakota values of wisdom, bravery, fortitude and 
generosity, I was taught to lead by action with humility, and 
not merely provide direction.
    If confirmed, I would commit myself to a number of 
priorities to strengthen the Department's programs. These 
priorities include promoting the ANA's priorities and 
initiatives in Indian Country to ensure that tribal communities 
are aware of new grant opportunities at the Department; 
strengthening the Interdepartmental Council on Native American 
Affairs at HHS to ensure that the Secretary is well informed on 
issues and best practices in Indian Country as it relates to 
HHS; collaborating with tribal governments and other 
stakeholders to provide increased services to ANA grantees and 
applicants through increased technical assistance, useful 
program evaluations, trainings, conventions as feasible; 
strengthening the relationship between ANA and Congress through 
frequent communication and the development of shared policy 
priorities; and continuing to foster the development of stable 
and diversified tribal economies; increase the prevalence of 
use of native languages; and support programs that support the 
well being of native youth and families.
    I am a firm believer in accountability and integrity in the 
work of any organization that has stakeholders or membership. 
It is incredibly important to identify performance goals to 
measure progress and evaluate the efficiency and effectiveness 
of the services provided.
    If confirmed, I will ensure that regulations developed by 
ANA follow the tribal consultation policies set forth by HHS 
and that all stakeholders receive adequate and prompt 
notification to participate in both the consultation and 
comment periods.
    Additionally, if confirmed, I pledge to implement and 
adhere to a system that allocates discretionary spending in an 
open manner through a set of fair and objective established 
criteria.
    I will also work closely with the committees of 
jurisdiction in Congress, including the Senate Committee on 
Indian Affairs, to ensure that the regulations are aligned with 
Congressional intent. I will work collaboratively with Congress 
and the Committee staff through open and frequent dialogue, 
information sharing, and meetings to ensure that the policies 
and regulations promulgated by the Department or Agency are not 
counteractive to the intent of the law, and work cohesively 
with legislative provisions to address or strengthen tribal 
programs.
    I believe that my lifelong career in public service, 
coupled with my extensive experience in policy formulation 
impacting youth and family in tribal communities qualify me for 
the appointment of ANA Commissioner.
    If confirmed, I look forward to working with the Members of 
this Committee to provide essential services to Native American 
communities across the Country.
    Again, thank you for the opportunity to appear before you 
today and I look forward to answering any questions that you 
may have at this time.
    [The prepared statement and biographical information of Ms. 
Sparks follow:]

Prepared Statement of Lillian A. Sparks, Nominee to be Commissioner of 
the Administration for Native Americans, U.S. Department of Health and 
                             Human Services

    Good morning Chairman Dorgan, Vice Chairman Barrasso and members of 
the Senate Committee on Indian Affairs. My name is Lillian Sparks. I am 
an enrolled member of the Rosebud Sioux Tribe and descendent of the 
Oglala Sioux Tribe and I humbly come before you today as the 
President's nominee to be the Commissioner for the Administration for 
Native Americans (ANA) at the Department of Health and Human Services 
(HHS).
    I was honored when the President nominated me to the position of 
Commissioner for Administration for Native Americans this past October, 
and believe my experiences have prepared me well to assume the 
responsibilities of this important position. Currently, I serve as the 
executive director of the National Indian Education Association (NIEA), 
where I lead the efforts of the membership and Board of Directors on 
education issues impacting American Indian, Alaska Native, and Native 
Hawaiian communities. I have also worked as a staff attorney for the 
National Congress of American Indians (NCAI), where I focused on issues 
relating to tribal governments and youth and families, including health 
care, early childhood education, international indigenous human rights 
and religious protection.
    I wish to serve as the Commissioner of ANA because I believe in the 
goals of self-sufficiency and cultural preservation established at ANA, 
and because I share this Administration's support for increasing and 
strengthening services for youth and families. It would be my honor to 
assist in implementing the President's agenda for tribal communities, 
including economic and infrastructure development, early childhood 
education, language preservation, and the principles of tribal self-
determination, tribal consultation, and tribal inclusion.
    I am a strong believer in ``service leadership'' and strive to 
practice service to others over self interest. Raised in my traditional 
Lakota values of wisdom, bravery, fortitude, and generosity, I was 
taught to lead by action, with humility, and not merely provide 
direction. If confirmed, I would commit myself to a number of 
priorities to strengthen the Department's programs. These priorities 
include:

  <bullet> Promoting the ANA's priorities and initiatives in Indian 
        Country to ensure that tribal communities are aware of new 
        grant opportunities at the Department;

  <bullet> Strengthening the Intra-Departmental Council on Native 
        American Affairs at HHS to ensure that Secretary is well 
        informed on issues and best practices in Indian country as it 
        relates to HHS;

  <bullet> Collaborating with tribal governments and other stakeholders 
        to provide increased services to ANA grantees and applicants 
        through increased technical assistance, useful program 
        evaluations, and convenings (trainings, conventions, etc.) as 
        feasible;

  <bullet> Strengthening the relationship between ANA and Congress 
        through frequent communication and the development of shared 
        policy priorities; and

  <bullet> Continuing to foster the development of stable and 
        diversified tribal economies, increase the prevalence of use of 
        Native languages, and support programs that promote the well-
        being of Native youth and families.

    I am a firm believer in accountability and integrity in the work of 
any organization that has stakeholders or membership. It is incredibly 
important to identify performance goals to measure progress and 
evaluate the efficiency and effectiveness of the services provided. If 
confirmed, I will ensure that regulations developed by ANA follow the 
tribal consultation policies set forth by HHS and that all stakeholders 
receive adequate and prompt notification to participate in both the 
consultations and comment periods. Additionally, if confirmed, I pledge 
to implement and adhere to a system that allocates discretionary 
spending in an open manner through a set of fair and objective 
established criteria.
    I will also work closely with the committees of jurisdiction in 
Congress, including the Senate Committee on Indian Affairs, to ensure 
that the regulations are aligned with Congressional intent. I will work 
collaboratively with Congress and the Committee staff through open and 
frequent dialogue, information sharing, and meetings to ensure that the 
policies and regulations promulgated by the department/agency are not 
counteractive to the intent of the law and work cohesively with 
legislative provisions to address or strengthen tribal programs.
    I believe that my lifelong career in public service coupled with my 
extensive experience in policy formulation impacting youth and children 
in tribal communities qualifies me for the appointment of ANA 
Commissioner. If confirmed, I look forward to working with the members 
of this Committee to provide essential services to Native American 
communities across the country.
    Again, thank you for the opportunity to appear before you today. I 
look forward to answering any questions you may have.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 

    The Chairman. Ms. Sparks, thank you very much.
    Let me call on my colleagues first. Are there questions of 
Ms. Sparks from the Committee?
    Mr. Franken, Senator Franken?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Ms. Sparks, congratulations on your 
nomination. You met with me and my staff recently to talk about 
Indian school construction issues. This is an issue of great 
importance to the tribes in my State. We have a tribe, Leech 
Lake Reservation, that has been scheduled for 10 or 15 years, I 
think, to have a school rebuilt or built on its reservation and 
they can't find out where they are on the list. And we 
discussed this.
    And I want to thank you for your commitment to work on 
this. I mean, we have the same thing at White Earth 
Reservation. And I am not sure exactly, can you explain how 
your new position would interact with making sure that we get 
the--because it is very hard sometimes in the Bureau of Indian 
Affairs bureaucracy, which I understand you are not part of, 
but how can you help us get these things, certain kinds of 
things like this resolved?
    Ms. Sparks. Yes, thank you for the question and thank you 
for meeting with me previously, Senator Franken.
    Certainly, transparency and accountability are high on my 
list of my priorities, as well as I know the Administration's 
priorities in terms of making sure that all information is 
accessible and readily available for our constituents, for our 
grants and for our tribal governments.
    It will certainly be one of my top priorities, if 
confirmed, within the Administration for Native Americans to 
make sure that we have all of the information available to both 
Members of Congress, but also to our grantees and to those that 
we serve.
    And I would say, in another capacity, I pledge to continue 
working with you and your tribes to make sure that we receive 
the information needed with regards to where the schools are on 
the list.
    Senator Franken. Thank you.
    Yesterday, I had Dr. Donald Warren from Aberdeen, South 
Dakota, and some members of the American Cancer Society, 
telling me about the alarming rates of cancer among native 
people, and life expectancy, the incidence of dying from cancer 
and how fast. And it has to do with resources. There are Native 
Americans who are diagnosed with cancer and then they can't be 
treated because there is no resources. The Indian Health 
Service has run out of money where they are. And they just 
simply can't get treated and die because of it.
    How are we going to make sure that the Indian Health 
Service is funded and that we address these disparities in 
health care?
    Ms. Sparks. Yes, it is very unfortunate with regards to the 
higher rates that our members of tribal communities die of 
preventable diseases and diseases where they should be 
receiving treatment. My grandmother, who is a member of the 
Oglala Sioux Tribe and would have been served by the Aberdeen 
area where Dr. Warren serves now, also is a victim of cancer. 
And so I certainly can understand the heart-wrenching heartache 
and pains that not just the individual goes through, but the 
family goes through because the services aren't available and 
because it is due to resources.
    With regards to increasing funding for the Indian Health 
Services, you know, I know ANA works very closely, hand in hand 
with IHS in making sure that the Secretary is aware of all of 
the service needs of tribal communities within the Department. 
And so I, if confirmed, will be working very closely with Dr. 
Yvette Roubideaux through the Interdepartmental Council on 
Native American Affairs to find out how can we address what are 
some of the challenges in our tribal communities, not just with 
regards to health, but throughout all of the programs and 
services under HHS.
    Senator Franken. The Administration for Native Affairs at 
HHS is mainly a grant-administering body. Is that right?
    Ms. Sparks. That is correct. ANA does administer grants in 
several categories, those being economic and social development 
for tribes, Native American languages, healthy families and 
marriages, and then environmental regulatory and mitigation 
grants.
    Senator Franken. And all these are critical to the well 
being of struggling native communities on our reservations, and 
very often these communities are chronically under-funded and 
services are delivered in an inadequate way.
    There are some really good models in our Country, such as 
the Harlem Children's Zone in New York, that integrate these 
programs and provide a comprehensive holistic set of services 
to tackle poverty and health and education issues and economic 
development.
    Would you look at this model and see if we can get a better 
integration of these services and provide grants to do that?
    Ms. Sparks. Absolutely. I think the Harlem Children's Zone 
is an excellent model with regards to how do we comprehensively 
meet the needs of the children in that particular community. It 
is something that actually NIA in my current position that we 
have been working on with a number of other organizations, 
including the National Congress of American Indians, National 
Indian Child Welfare Association and National Indian Health 
Board in terms of how can we comprehensively meet the needs of 
native students, where are some of the best practices, where 
are some of the best programs out there in tribal communities 
where education is working with a child welfare office, working 
with the Indian Health Service clinic, working with the tribal 
colleges.
    And so it is my hope that, if confirmed in my new capacity, 
that I would be able to continue looking at what are some of 
those best practices as it is a perfect fit for the 
Administration for children and families.
    Senator Franken. Thank you very much, and congratulations.
    Ms. Sparks. Thank you, Senator Franken.
    The Chairman. Let me call on Senator Johanns.
    Let me mention to the Committee that we are doing a second 
hearing on the issue of jobs and unemployment on Indian 
reservations. We have four witnesses, I believe, there, and we 
have two votes that I believe will start in about an hour.
    Senator Franken. Is that your way of suggesting that maybe 
I went too long, Mr. Chairman?
    [Laughter.]
    The Chairman. I would have said so directly had I thought 
that. There was no hidden message here, Senator Franken.
    Senator Franken. Okay, well, you would be tactful and I 
thought it might have been that.
    The Chairman. Senator Johanns is next. Take as much time as 
you like.
    Senator Johanns. Thank you.
    [Laughter.]

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Thank you very much. I am not going to 
take too much time.
    In fact, I looked through your background and thought, you 
know, how impressive, what a great career you have had so far 
in your life, and I wasn't going to say anything, but I 
couldn't pass up the opportunity.
    First thing I want to say is your parents can be very, very 
proud of what you have accomplished, and I know they are. But I 
know also that your tribe also must be enormously proud that 
you are sitting there today.
    In the State of Nebraska, as you probably know, we have 
four tribes. And when I was the Governor of Nebraska, we would 
do something on an annual basis that was very well received and 
I have decided to continue it now that I am in the Senate, and 
that is we have a tribal summit. And we will spend many hours 
together sometime this coming year. And all four tribes are 
involved. We are now working to build an itinerary of the 
subjects we want to cover so we make sure that their time is 
very well spent.
    Behind me to my right is Lea Stueve. She works with me on 
this. And I am going to ask you to exchange email addresses 
with Lea, if you would. What would be really great is if we 
could invite you out to Nebraska. I don't know what your travel 
budget is or your schedule is, but I think that would be great.
    And at the risk of speaking for the tribes, I think they 
would love to see you there. And if the tribal summit works, we 
would even welcome you to that. And you might be able to not 
only meet really outstanding people, but then establish an 
ongoing relationship with them directly.
    So if you could keep that in mind, I would appreciate it. I 
don't have any other questions or comments other than to say 
congratulations. I am going to be very, very proud to support 
you as you make your way here through the confirmation process, 
and then we put you to work. Okay?
    Ms. Sparks. Thank you, Senator, and I will be sure to 
exchange information with Lea.
    Senator Johanns. Okay. Great. Thank you.
    The Chairman. Senator Johanns, thank you very much.
    Are there other Senators that wish to have comments or 
questions?
    Senator Udall. Chairman?
    The Chairman. Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Yes. Chairman Dorgan, thank you.
    Just a brief statement. I agree with Senator Johanns about 
your background and I want to thank you for serving. I would 
just like to say that I know you have advocated for the Esther 
Martinez Native Languages Act. Esther was a woman who lived in 
New Mexico, and a result of her death, was the passage of the 
Esther Martinez Native Languages Act.
    And one of the important things that I think we all need to 
focus on is the fact that, and it can't be said strongly 
enough, that language is culture. And when we lose the 
language, we lose the culture. There is a real connection 
there. When we are from another culture, we don't necessarily 
realize that.
    So I hope that as we move down the road, and I know you 
have been an advocate for this, that we try to do everything we 
can to give tribes the tools to retain their languages. I see 
them doing it on their own, but they need a little help. I see 
grandmas coming into Head Start Centers and working with their 
grandchildren and other grandchildren to try to preserve those 
languages. And I think if we just stepped up to the plate on 
this Esther Martinez Language Act and funded it, we would start 
giving the tools to the tribes to retain their languages.
    So with that, I am not asking you a question because I want 
to move on with the jobs hearing. I would just urge you to 
continue in your position when you get in there to be an 
advocate. I know you will. I know I don't have to say that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Johnson?
    Senator Johnson. I would note that besides Ms. Sparks with 
the ANA, the new head of the IHS is also a Rosebud Sioux 
member.
    Ms. Sparks. Right.
    Senator Johnson. And I appreciate the knowledge.
    The Chairman. We will let the record note about the Rosebud 
Sioux Tribe.
    [Laughter.]
    The Chairman. Senator Tester?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Yes, thank you, Mr. Chairman.
    And as with Senator Johanns, when you make that trip to 
Nebraska, I invite you to come to Montana. We would love to 
have you up there to take a look around.
    I only have one question, and there are a bunch of 
questions we could ask about the PATH Act and other things that 
I know you have worked on and have an interest in. But the one 
question I have is there is going to be grants from ANA that 
you will be overseeing that you will be sending out the door 
that hopefully will create some jobs in Indian Country.
    Could you give me an idea of what kind of grants you are 
going to be looking for that you think we get the most bang for 
the buck for?
    Ms. Sparks. Well, I think, without sounding too premature, 
definitely we would be looking at grants and programs, if 
confirmed, that would be aligned with the President's and the 
Administration's goals. You know, yesterday evening, President 
Obama talked extensively about the importance of creating jobs 
and the Jobs Act. And looking at ANA and the types of grants 
they already give, a number of the social and economic 
development grants and the tribal infrastructure grants are 
aligned already with the President's goals.
    And so I would certainly go into the office looking at what 
grants we are already distributing, visiting with the grantees, 
finding out what is successful, what works, and by the way, how 
we can promote and strengthen that to make sure that we are 
providing the most employment that we can in Indian Country 
through ANA as feasible.
    Senator Tester. Well, I want to thank you, and I want to 
thank you for your willingness to serve, and wish you all the 
best in your capacity. I think you will do a great job.
    Ms. Sparks. Thank you very much, Senator.
    The Chairman. Any other questions?
    Ms. Sparks, I will send some written questions to you and 
ask that you respond to them quickly, and this Committee will 
then attempt to move your nomination with dispatch as well.
    We thank you very much for coming to the hearing today.
    Ms. Sparks. Thank you, Mr. Chairman.
    The Chairman. And we will keep the record open if there are 
others that wish to submit statements on the nomination.
    Ms. Sparks. Thank you.
    The Chairman. Ms. Sparks, thank you very much. You are 
excused.
    And that will end the hearing on Ms. Sparks' nomination and 
we will begin the hearing now on the issue of unemployment on 
Indian Reservations.
    [Whereupon, at 2:47 p.m., the Committee proceeded to other 
business.]
                            A P P E N D I X

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Tom Coburn, M.D. to
                           Lillian A. Sparks
    Question 1. The Indian Education Association was one of the leading 
proponents of and lobby groups for the Ester Martinez Native Languages 
Preservation Act, a program under the purview of the Administration for 
Native Americans. Do you foresee any conflict of interest between your 
former advocacy role and your new administration position?
    Answer. If confirmed, I am confident that my prior role as Director 
of the National Indian Education Association will not conflict with my 
responsibilities as Commissioner of the Administration for Native 
Americans. I appreciate the strong interest in language preservation 
activities envisioned under the Esther Martinez Language Preservation 
Act, and look forward to working on these projects as well as all other 
projects supported by the Native American Programs Act.
    In addition, if any questions arise regarding real or perceived 
conflicts of interest on this or any other issue, I will consult with 
the Department's designated ethics official.

    Question 2. As you know poverty and unemployment are prevalent in 
Indian Country. As a result, this has prompted greater dependency on 
federally supported programs. The first goal listed on ANA's website 
is, in part, to reduce the dependency on public funds and social 
services. To what extent has the agency achieved this goal since its 
inception in 1972? How will you measure progress is made during your 
tenure?
    Answer. I share your concern about the prevalence of poverty and 
unemployment in Indian Country. While I believe the programs 
administered by the Administration for Native Americans have helped 
promote self-sufficiency in our native communities, I am committed to 
ensuring they are efficient and accountable. If confirmed, I will use 
all the statutory tools available to ANA, including the mandate to 
conduct impact evaluations of ANA-funded projects, to determine whether 
we are making progress toward improving the well-being of children and 
families in Indian Country. In addition, wherever possible, I will 
establish measurable goals for the agency and its programs in order to 
ensure that our resources are being allocated effectively.

    Question 3. Which programs within the Department, if any, do you 
think can be eliminated because they are ineffective, duplicative, 
unnecessary or have outlived their purpose?
    Answer. Prior to confirmation, I do not believe I am in a position 
to determine which ANA programs should be continued or eliminated. 
However, as I mentioned in my previous response, I intend to move 
quickly to evaluate the agency and its programs with an eye toward 
efficiency and accountability, and I will certainly not hesitate to 
eliminate programs or initiatives that are ineffective or unnecessary. 
As you know, the President has expressed a firm commitment to 
eliminating wasteful programs, and I fully support that objective.

    Question 4. More specifically, do you believe there is overlap 
between programs that will fall under your jurisdiction and Department 
of Interior programs, and, if so, how will you work to ensure greater 
coordination and efficiencies?
    Answer. I believe that various programs within HHS/ANA and the 
Interior Department are focused on different aspects of similar issues 
and challenges, and I agree that interdepartmental collaboration is 
important to improved program management and outcomes. If confirmed, I 
look forward to strengthening ANA's partnership with other offices and 
agencies--both within HHS and across the government--in an effort to 
ensure we are working together to achieve clearly defined goals.

    Question 5. President-elect Obama promised to conduct ``an 
immediate and periodic public inventory of administrative offices and 
functions and require agency leaders to work together to root out 
redundancy.'' When do you plan to start this and when can we expect you 
to complete it?
    Answer. As I mentioned in a previous response, I intend to move 
quickly to evaluate the agency and its programs with an eye toward 
efficiency and accountability. If confirmed, it will be one of my first 
priorities to conduct a review of ANA's resources and programs to 
ensure that its mission is clearly defined, and that its spending is in 
line with that mission.

    Question 6. Currently all recipients of federal grants, contracts, 
and loans are required to be posted online for public review. Do you 
support making all federal assistance including subcontracts and 
subgrants transparent in the same manner?
    Answer. I share the President's commitment to government 
transparency, and, if confirmed, I look forward to working with 
Secretary Sebelius and HHS leadership to bring a new level of 
transparency to the Department. As you noted in an earlier question, 
part of ANA's mission is to promote self-sufficiency and reduce 
dependency on public funds and social services, and I believe that 
increased transparency and accountability with respect to ANA's program 
dollars will help measure the agency's progress toward meeting that 
goal. Toward that end, I am committed to identifying opportunities at 
ANA where transparency and accountability can be increased, including 
with respect to how program dollars are being spent.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Daniel K. Akaka to
                           Lillian A. Sparks

    Question 1. The ANA program for more than 30 years has served all 
of the indigenous peoples of the United States and its territories, 
including Native Hawaiians, Alaska Natives and American Indians, 
recognizing the unique cultures, languages and value in supporting 
community based empowerment.
    Will you continue this long standing commitment by ANA to serve the 
indigenous peoples of the United States, regardless if they are located 
in Hawaii, Alaska, the lower 48, or the Pacific?
    Answer. Yes. If confirmed, I will continue to support all of the 
eligible populations for ANA programs, regardless of geographic 
location.

    Question 2. The contracts issued by ANA to deliver training and 
technical assistance across the country and in the Pacific are one of 
the most important ways that Native communities are not 
disenfranchised, and able to fully participate in the ANA program. 
Technical assistance is best delivered by organizations and firms that 
have a first hand knowledge of the culture and peoples of a particular 
region. In addition, these contracts are excellent ways of supporting 
locally owned and controlled firms in the various regions of the 
country.
    How will you ensure that the selection of TTA contractors are 
representative of the communities they are serving, whether they are 
American Indian, Alaska Natives, Native Hawaiians, or Pacific 
Islanders?
    Answer. I absolutely agree that ANA must work to identify firms for 
contracting purposes that are best-suited to performing the job in 
question, and that first-hand knowledge of the cultures and people of 
the communities served by ANA is extremely beneficial in providing 
people with the kind of assistance they need to take full advantage of 
the agency's programs and services. If confirmed, I will ensure that 
contracting rules are followed, while also reaching out to encourage 
firms that represent the communities ANA serves to compete for 
contracting opportunities.

    Question 3. Self-governance has long been one of the cornerstone 
areas of the ANA program, along with economic and social development, 
and language preservation.
    What are your views on how the strengthening of Native self 
governance impacts all other areas of community well-being in Native 
communities, whether represented by a federally recognized tribe or 
not?
    Would you support the use of ANA programs to advance Native peoples 
that are working toward federal recognition?
    Answer. I understand your interest in the important questions 
surrounding self-governance, and, if confirmed, I intend to work 
closely with other HHS agencies and offices to review the department's 
policies in this area with the goal of promoting the well-being of all 
Native communities. With respect to federal recognition, it is my 
understanding that ANA does not currently fund projects that are 
focused on the federal recognition process. If confirmed, I will 
examine this issue more closely to determine whether such projects fit 
within ANA's authority and existing program priorities. Of course, if 
confirmed, I would be happy to work with you and your staff on both of 
these important issues.

                                  <all>

</pre></body></html>
